No. 20-297
IN THE

Supreme Court of the United States
TRANS UNION LLC
Petitioner,
v.
SERGIO L. RAMIREZ,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE
I, Patrick J. Carome, a member of the bar of this Court, hereby certify that, on
this 8th day of February, 2021, all parties required to be served have been served copies
of the Brief for Amici Curiae eBay, Inc., Facebook, Inc., Google LLC, Computer &
Communications Industry Association, The Internet Association, and Technology
Network Supporting Petitioner in this matter by overnight courier to the addresses
below.
Counsel for Petitioner

Counsel for Respondent

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 289-5000
paul.clement@kirkland.com

SAMUEL ISSACHAROFF
40 Washington Square South
New York, NY 10012
(212) 998-6580
Si3@nyu.edu

PATRICK J. CAROME
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
patrick.carome@wilmerhale.com

